U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 18, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Miladis Salgado v. United States, No. 19-659
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 19,
2019. The government’s response is now due, after one extension, on February 20, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 28, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0659
SALGADO, MILADIS
USA

DAN ALBAN
INSTITUTE FOR JUSTICE
901 N. GLEBE ROAD
SUITE 900
ARLINGTON, VA 22203
703-682-9320
DALBAN@IJ.ORG
JOSHUA S. LIPSHUTZ
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, N.W.
WASHINGTON, DC 20036
202-955-8500
JLIPSHUTZ@GIBSONDUNN.COM
SAMUEL G. MACROBERTS
KANSAS JUSTICE INSTITUTE
12980 METCALF AVENUE
SUITE 130
OVERLAND PARK, KS 66213
913-213-5018
SAM.MACROBERTS@KANSASJUSTICEINSTIT
UTE.ORG
JUSTIN MARC PEARSON
INSTITUTE FOR JUSTICE
2 S. BISCAYNE BOULEVARD
SUITE 3180
MIAMI, FL 33131
305-721-1600
JPEARSON@IJ.ORG

